 Department of Health and Human Services

         OFFICE OF
    INSPECTOR GENERAL




MONITORING MEDICARE CONTRACTOR

          PERFORMANCE


                         A NEW APPROACH




                        #i4 SERVICE$
                    &                  q+
                  -3
              e
          g
                                            JUNE  GIBBS BROWN
          4                                 Inspector  General
          2
          ‘3
           %@--           Jg


             %@a                                   AUGUST 1995
             >                                     OEI-01-93-00160
                      OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services’ (HHS)
programs as well as the health and welfare of beneficiaries served by those programs. This
statuto~ mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by three OIG operating components: the Office of Audit Services, the
Office of Investigations, and the Office of Evaluation and Inspections. The OIG also informs
the Secretary of HHS of program and management problems and recommends courses to
correct them.

                          OFFICE OF AUDIT SERVICES

The OIGS Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors in
carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the Department.

                          OFFICE OF INVESTIGATIONS

The OIGS Office of Investigations (01) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of
unjust enrichment by providers. The investigative efforts of 01 lead to criminal convictions,
administrative sanctions, or civil money penalties. The 01 also oversees State Medicaid fraud
control units which investigate and prosecute fraud and patient abuse in the Medicaid program.

              OFFICE OF EVALUATION AND INSPECTIONS

The OIG’S Office of Evaluation and Inspections (OEI) conducts short-term management and
program evaluations (called inspections) that focus on issues of concern to the Department,
the Congress, and the public. The findings and recommendations contained in these inspection
reports generate rapid, accurate, and up-to-date information on the efficiency, vulnerability,
and effectiveness of departmental programs.

This report was prepared under the direction of Mark R. Yessian, Ph.D., Regional Inspector
General, and Martha B. Kvaal, Deputy Regional Inspector General, Boston Region. Project
staff included:

BOSTON REGION                                                                  HEADQUARTERS

Russell W. Hereford, Ph.D., ProjectLeader                     Jennifer Antico, Program Specialist


          For additional copies of this report,please contact the Boston Regional Ojfice
                    by telephone at 617-565-1050or by fax at 617-565-3751.
 Department of Health and Human Services

         OFFICE OF
    INSPECTOR GENERAL




MONITORING MEDICARE CONTRACTOR
          PERFORMANCE

             A NEW APPROACH




                        AUGUST 1995
                        OEI-01-93-00160
              EXECUTIVE                         SUMMARY

PURPOSE

To provide an early, preliminary assessment of the new approach that the Health Care
Financing Administration usedin 1994 toevaluate Medicare contractor performance
in medical review and in fraud and abuse activities.

BACKGROUND

The Health Care Financing Administration (HCFA) contracts with 33 carriers to
process Medicare claims for physicians and supplies, and with 46 fiscal intermediaries
to process claims for institutional providers. The FY 1995 appropriation for these
contractors is $1.6 billion. In 1995, they are expected to process 785 million claims.

In 1994 HCFA instituted a new approach for reviewing contractor performance in two
important areas of payment safeguards: fraud and abuse, and medical review. This
approach had two basic features. First, the review used a qualitative assessment of
contractor performance, rather than a standardized numerical scoring system. Second,
HCFA used teams comprised of staff from different regional offices to conduct the
reviews, rather than rely on a single staff member from the local regional office.

Our methodology relies on three data sources: a review of the narrative reports
submitted to contractors following their review; interviews with HCFA staff from five
regional offices and the central office; and interviews with staff from 15 contractors,
including 10 contractors that were reviewed under the new approach and 5 that were
not reviewed using this approach.

FINDINGS

-Y     EXPERIENCE INDICATES THAT THE NEW APPROACH HAS IMPROVED HCFA’S
ABILITY TO ASSESS CONTRACTOR PERFORMANCE IN MEDICAL REVIEW AND IN
FRAUD AND ABUSE.

Z4e qualitative assessment used in the new approach gave HCFA a way of gathering
useful information that it had not obtained before.

  .	   The flexible protocol enabled the review team to target its inquiry on areas of
       each contractor’s performance that the team identified as problematic.
              Examples of problems identified:
                no system for prioritizing fraud cases
              . inadequate data analysis system to identify aberrant billing patterns
              - lack of system to evaluate success of provider corrective actions



                                            i
  ��   Thenewapproach     encouraged theretiew teams to identify strengths and
       weaknesses that cut across different operating units at individual contractors.
              Examples of strengths identified:
              . standardized format for referrals
              . fraud unit staff conducts fraud detection training for all contractor staff
              Examples of weaknesses identified:
              . referral of non-fraud cases to fraud unit
              . inadequate contractor wide training on fraud detection and prevention

Using teams from outside the local regional office to conduct the reviews enhanced the
review for both HCFA and contractors.

  .	   The external teams brought new information about contractor operations to
       both HCFA and the contractors.
              Information brought to HCFA
               . impact of requirements on contractor operations
               . central office involvement in contractor assessment

              Information brought to contractors:
               . improved understanding of HCFA policies and expectations
               . improved ways of using data systems

  �    The use of external teams added an element of objectivity to the reviews.
              Contractor perspectives on objectivity:
              . “You are more challenged to really walk an outside team through your
                      processes, to be sure you explain your operation to them.”
              . “If YOU deal with someone daily, they have more trouble finding fault.
                      If they don’t know us, they’re not so concerned about future
                      dealings with us.”

OUR EARLY ASSESSMENT AMO SUGGESTS THAT HCFA HAS NOT YET MADE FULL
USE OF THE INFORMATION GATHERED IN THESE REVIEWS TO FURTHER
CONTRMXORS’ ABILITY TO SAFEGUARD MEDICARE PAYMENTS

HCFA regional staff are using the written reports @om these reviews in their ongoing
assessment of contractor performance. Howeve~ regional staff may not be taking jidl
advantage of these reports to provide more effective oversight of contractor activities.

The written reports varied widely in four significant ways:
       Criteria for imposing corrective action plans;

       Differing interpretations of similar facts;

       No prioritization of recommendations; and

       Different levels of detail reported,



                                              ii
In the course of the reviews, HCFA gathered national information on effective contractor
practices, as well as practices to avoid. Howeve~ the agency has not yet conveyed this
inforrnah”onto contractors as a way of strengthening overall operation of the Medicare
program.

RECOMMENDATIONS

The real measure of the success of this new approach will be determining whether
contractors in the years ahead are doing a better job of preventing inappropriate
payments under the Medicare program. In order to build upon the process initiated
this past year, we recommend that HCFA take the following steps:

THE HCFA CENTRAL OFFICE SHOULD BE SURE TO OBTAIN INFORMATION FROM
THE REGIONAL OFFICES TO SEE HOW THEY ARE MONITORING CONTRACI’OR
IMPROVEMENT PLANS THAT AROSE FROM THESE REVIEWS OF FRAUD AND ABUSE
ACHWTIES AND MEDICAL REVIEW.

Obtaining this information is important for three reasons:
    HCFA needs to assess the results of this new approach over time;
    HCFA should have a mechanism for determining how the regional offices are
      accepting findings of reviews conducted by outside teams; and
    HCFA should have a central source for assessing the practical usefulness of the
      reports.

THE HCFA SHOULD DEVELOP A GENERAL FORMAT FOR KEY INFORMATION TO BE
CONTAINED IN THE WRITTEN REPOR’13.

At a minimum, we believe that this information should include:
   the basis for imposing corrective action plans;

   the supporting data needed to portray accurately the results of the reviews; and

   prioritization of recommendations for improvement.


THE HCFA SHOULD TAKE IMMEDIATE STEPS K) PREPARE AN ANALYSIS OF
EFFECI’IVE PRACIKES, AND PRACTICES TO AVOID, BASED ON FJNDINGS FROM THE
1994 REVIEW PROCESS. ‘l_’HEHCFA SHOULD SHARE THESE ANALYSES WITH ALL
FISCAL INTERMEDIARIES AND CARRIERS.

The HCFA should evaluate the success of this effort, perhaps through conducting user
feedback surveys. If the approach is meaningful for the contractors, we would urge
HCFA to continue to conduct and share similar analyses in the future.

COMMENTS ON THE DRAFT’ REPORT

We sought comments on the draft report from HCFA and from the Assistant
Secretary for Planning and Evaluation (ASPE). The HCFA concurred with our


                                            ...
                                            m
recommendations and summarized steps that the agency is taking to implement those
recommendations.  The ASPE also concurred with our recommendations, but offered
no additional comments. We include HCFA’S full comments as Appendix A.

In response to our first recommendation, HCFA indicates that regional offices are
submitting copies of Contractor Performance Improvement Plans to the central office.
Central office and the regions are working to develop a mechanism for continuous
monitoring of these Performance Improvement Plans.

In response to our second recommendation, HCFA notes that it is providing general
guidelines for review teams concerning key information to be communicated in written
reports. The actual report format will be determined by the review teams, as is
currently being done for the national review in the Medicare Secondary Payer area.

In response to our third recommendation, HCFA states that it already has
disseminated best practices to carriers and intermediaries,

We appreciate HCFA’s positive response. We would be pleased to work with the agency
in the future to evaluate the effectiveness of its actions in these areas.




                                          iv
                         INTRODUCTION�
.
PURPOSE

To provide an early, preliminary assessment of the new approach that the Health Care
Financing Administration used in 1994 to evaluate Medicare contractor performance
in medical review andin fraud and abuse activities.

BACKGROUND

The Health Care Financing Administration (HCFA) contracts with 46 fiscal
intermediaries to process claims for institutional providers, and with 33 carriers to
process claims for physicians and supplies. The FY 1995 appropriation for Medicare
contractors is $1.6 billion. In 1995, these contractors are expected to process nearly
785 million Medicare claims.1

Contractor Performance Evaluation Prior to 1994

Historically, HCFA used the Contractor Performance Evaluation Program (CPEP) to
monitor contractor performance. The CPEP used a tightly defined numerical scoring
system on a wide range of performance criteria. 2 Beginning in FY 1993, HCFA
began to incorporate some major changes in CPEP. These changes were driven in
part by budgetary considerations. More significant, however, was dissatisfaction with
the effectiveness of the annual CPEP review process. These dissatisfactions included:

1) Concerns were raised that CPEP was not measuring the most important aspects of
contractor performance. The General Accounting Office criticized CPEP because “it
has focused more on process rather than outcome. Therefore, CPEP does not
sufficiently emphasize efforts to save program benefit payments, particularly through
its measurement of the effect of payment safeguards.”3 For example, CPEP assessed
the timeliness of contractor responses to complaints, or the ability of the contractor to
process claims within mandated time frames.

2) Because contractors knew exactly what they were being measured on, and had
even helped to develop the evaluation protocol, they managed their contracts in a way
that would maximize their score. The CPEP did not assess other areas of contractor
performance.

3) The potential also existed for regional office staff involved in the CPEP reviews to
become too close to contractors, threatening their objectivity. For example, because
the regional office staff member knew the contractor staff, he or she might not be
unbiased when it came to reviewing the organization. Or, the regional office staff
member might not subject the contractor to rigorous scrutiny because of an
assumption that the contractor would continue to perform adequately, as it had done
in the past.



                                            1

                       TABLE                    OF CONTENTS


EXECUTIVE         SUMMARY


INTRODUCHON .            . . .. . . . .. . . . .. .      . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..1



FINDINGS        . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .
 4

 HCFA’sImproved Abilityto Assess Contractor Performance . . . . . . . . . . . . . . . .
 4
   Qualitative assessment . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .
 4
   External review teams . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .
 6

 HCFANot MakingFull Useof Information . .                            .   .   .   .   .   .   .   .   .   .   .   ..   .   .   .   .   .   .   .   .   .   .   .   ...9

   Ongoingmonitoring       .................                         .   .   .   .   .   .   .   .   .   .   .   ..   .   .   .   .   .   .   .   .   .   .   .   ...9

   Variation in written reports..        ..........                  .   .   .   .   .   .   .   .   .   .   .   ..   .   .   .   .   .   .   .   .   .   .   .   . .
 10
   Effective practices . . . . . . . . . . . . . . . . . . .         .   .   .   .   .   .   .   .   .   .   .   ..   .   .   .   .   .   .   .   .   .   .   .   . .
 12


RECOMMENDATIONS                     . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .
 13

 Monitoring Contractor Improvements . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .
 13
 General Format for Written Reports . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .
 14
 Analysis of Effective Practices . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .
 14

AGENCY        COMMENTS              . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .
 16

APPENDIX        A    HCFAComments                 on the Draft Report                        . . . . . . . . . . . . . . . . . ..A-1


APPENDIX        B: Endnotes         . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . B-1

HCFA’S New Approach to Contractor Performance Review

In 1994HCFA instituted asignificantly retised approach for reviewing contractor
performance in the areas of fraud and abuse and medical review. The 1994 CPEP
was designed “to determine the degree to which contractors are ensuring effective
management of these program areas and whether the trust funds are being
protected.”4

This new approach had two fundamental features:

  �    Qualitative Assessment of Contractor Pe~ormance

The new approach turned from a numeric scoring system to a qualitative assessment
of contractors’ strengths and weaknesses. The review considered the consequences of
any weaknesses and-provided recommendations for improvement. Rather than
provide a single numeric score for the contractor, the new review process produced a
written narrative. These reviews addressed two areas related to safeguarding the
Medicare Trust Fund: Contractors’ detection of fraud and abuse and their medical
review practices.

  �   External Team Reviews

Rather than rely on review by a single staff member from the local regional office,
HCFA used re~iew teams m~de up-of staff from different regions to c&duct the 1994
reviews. Each review team comprised at least two of these external staff. For some
reviews, a third individual from the HCFA central office joined the team. The review
team communicated its findings in a report directly to the contractor, rather than
through the local regional office.

The HCFA used one set of six teams to examine fraud and abuse detection for both
intermediaries and carriers. Another set of four teams examined medical review for
intermediaries, and a different set of four teams examined medical review for carriers.
The HCFA teams reviewed 34 contractors for fraud and abuse detection (16 Part A,
18 Part B), 20 for Part A medical review, and 19 for Part B medical review.5

METHODOLOGY

Our methodology relied on three data sources:

First, we reviewed each of HCFA’S narrative reports submitted to contractors
following their review.

Second, we used a semi-structured guide to interview HCFA staff from the central
office and from the following five regional offices: Region 1 (Boston), Region 3
(Philadelphia), Region 4 (Atlanta), Region 5 (Chicago), and Region 6 (Dallas). We
selected these regions after reviewing the narrative reports, to provide a distribution



                                            2

among the regions in terms of their participation in the review process and the
findings with respect to different contractors.

Third, we used a semi-structured guide to interview staff from the following 15
contractors. We selected three contractors from each region, two that had been
reviewed under the new approach and one that had not. We chose these contractors
based on our review of the narrative reports and discussions with the HCFA regional
office staffi

Region 1: Blue Cross and Blue Shield of Massachusetts; Blue Cross of Maine;
MetraHealth, Connecticut.

Region 3: Xact Medicare Services, Pennsylvania; Blue Cross of Virginia; Blue Cross
of Maryland.

Region 4: Blue Cross of North Carolina; Blue Shield of Florida; Blue Cross of
Georgia.

Region 5: AdminaStar Federal, Indiana; MetraHealth,     Minnesota; Wisconsin
Physician Services.

Region 6: Blue Cross and Blue Shield of Texas; New Mexico Blue Cross; Aetna Life
Insurance, Oklahoma.

AU told, the ten contractors that had been reviewed under the new approach comprise
six Part A and seven Part B contractors (three hold both A & B contracts). They
received reviews as follows: five Part A medical review, six Part B medical review, four
Part A fraud and abuse; and six Part B fraud and abuse. The five contractors that did
not participate in the 1994 reviews hold three Part A contracts and two Part B
contracts.

We conducted this study in accordance with the Quali~ Standards for Inspections
issued by the President’s Council on Integrity and Efficiency.




                                           .J
                                 FINDINGS


EARLY EXPERIENCE INDICATES THAT THE NEW APPROACH HAS IMPROVED HCFA’S
ABILITY TO ASSESS CONTRACIXIR PERFORMANCE IN MEDICAL REVIEW AND IN
FRAUD AND ABUSE.

The qualitativeassessment used in the new approachgave HCFA a way of gathering
usefidinforrnatk-mthatit had not obtainedbefore.

We compared the narrative reports submitted by the review teams for the 1994 review
with the 1993 Reports of Contractor Performance provided by HCFA for these same
52 contractors. The outcomes of the reports--the strengths, weaknesses, and
recommendations for improvement identified in 1994 versus the numerical scores
issued in 1993--provide clear evidence that the new approach gave a greater level of
information about contractor performance in fraud and abuse and medical review.

In 1994, the review teams found weaknesses and areas for improvement in every
contractor reviewed. The most serious problems, requiring contractors to submit
formal corrective action plans (CAPS) to their regional office, were found at
contractors in 22 out of 73 reviews conducted (30 percent). These 22 contractors
included 14 that had received perfect scores in the prior year.

In 1993, in comparison, 28 of the 52 contractors (54 percent) reviewed in 1994 had
perfect scores of 100; 46 (88 percent) contractors received a total score of 95 or
higher, and only one contractor scored below 90. We recognize that the actual criteria
on which they were judged varied between the two years. However, the weaknesses
found in the 1994 review provide solid evidence that contractors, which had been
judged to be performing at a high level in 1993, were weak in some areas in 1994.
The clear implication is that the 1994 protocol was more sensitive to contractor
operations in fraud and abuse and/or medical review than the 1993 version.

One important accomplishment of the 1994 reviews was to provide information for
HCFA on how far contractors had come, and how much further they need to go, to
meet HCFA’S expectations for performance in fraud and abuse and in medical review.
A regional HCFA official summarized this issue when he said that, “The old CPEP
was a scorecard, and as long as you did what the protocol dictated, you’d get an “A”.
With this new approach, we were looking at no matter what you were doing, how
could you do it better.” These expectations, and the focus of the 1994 reviews,
addressed issues such as contractors’ capacity to:

       - develop a strategy for prioritizing high cost, high incidence, high dollar claims.

       - conduct large scale data analysis and statistical work to identify significant
       local aberrances;



                                             4

       - establish methods to evaluate contractors’ success in correcting inappropriate
       provider billing; and

       - proactively deter fraud.

  �	   The J?exibleprotocol enabled the review team to target its inquiry on areas of each
       contractor’s pe~ormance that the team identified as problematic.

Our interviews with HCFA and contractor staff confirmed that the 1994 protocols
provided HCFA with information that was more useful for contractor evaluation. The
new evaluation protocols did not use a scoring system, but focused on identifying
strengths and weaknesses, with recommendations for improvement. A key feature of
the protocols was the intention to let the review team delve into areas that the team
identified as important while they were on site at the contractor. The highlighted
examples, typical of those we heard from several participants, show that these
protocols seem to have accomplished those goals.




Contractors we interviewed, both those who had been reviewed and those who had
not been reviewed, saw this new approach as a positive step. Several contractors used
the term “trivia” to describe the measures in the prior review. One contractor staff
member summarized the positive benefit of the changes as follows: “We are no longer
worrying about timelines--arguing over whether a letter was answered in 30 days or 31
days--but on whether we are doing what we should, like referring good cases to OIG.”

  �	   Xhe new approach encouraged the review teams to identify strengths and
       weaknesses that cut across different operating units at individual contractors.

The new approach focused on the processes that contractors use to carry out their
work. Areas of inquiry included the way that different operating units interact with
each other, the flow of information across units, and the entire organization’s
commitment to payment safeguards. To obtain this information, review teams
assessed how other operating units of the contractor interacted with the one under
review.
One review team member capsulized how this process worked. “We had a lot more
leeway in conducting reviews. Rather than just talk to the manager or the fraud staff,
we interviewed everyone in the fraud unit, plus people in other units--medical review,
claims processing, even the receptionists. In the past we’d found a lack of
communication between fraud and abuse and other units; now we could factor that in
to the report.”

Through these intemiews, the teams were able to identify issues of concern that went
beyond the specific area at hand. Examples from four reviews illustrate these points.




Uiingteamsfrom outsidethe kxal regiimalo~e         to conductthe reviewsenhancedthe
reviewfor both HCFA and contractor

  �	   The external teams brought new information about contractor operations to both
       HCFA and the contractors.

       Information brought to HCFA

The HCFA received new information from these reviews in three principal ways.

First, HCFA central office staff participated on the review teams. In 32 of the 73

reviews (44 percent), central office staff were members of the review teams. For the

regional office staff, the benefit of this participation was best characterized by the staff

member who said that, “It would have been beneficial if we had fully experienced

people from central on eve~ review--not so much for conducting the review, but for



                                              6
training them so that central office understands that there are multiple ways to do
something.” A central office staff person verified this when she said that “Instructions
for performance originate in Baltimore, and it was good for us to see how things work
out there where they really hit the road.”

Second, office staff from other regional offices learned how their counterparts
elsewhere operated and the impact of their policies. The benefit of this cross-
fertilization was best characterized by the contractor who told us, “Sharing best
practices from the other regions prompted our local regional office to look at things
differently as well. I’m sure that regional offices exchange information at some level,
but the team review gave them a very specific framework to do this.”

Third, HCFA staff received input from the contractors regarding problems that they
faced with HCFA and suggestions for improvement. This input was most formal in
the reviews conducted for Part B medical review, where the narrative reports included
the carriers’ recommendations for HCFA. Every carrier reviewed in this area had
some recommendations for HCFA. This section was not included in the reports for
Part A medical review, nor for the fraud and abuse reviews.




A typical contractor comment about this opportunity was, “The open discussion helped
us. We were able to bring issues to light to them to communicate with central office.
Our manual has changed so much over the last three years that this was a good
discussion.”

       Information brou~ht to contractors

Contractors received new information through two primary mechanisms. First, the

process brought contractors a better understanding of HCFA policies and

expectations. These policies had been conveyed in contractor manuals, but the

reviews reinforced HCFA’S emphasis cm specific items, such as fraud prevention and

detection. The importance of the external review teams in conveying this message was

best characterized by the regional official who told us that, “The review team and this

approach really were instrumental in giving a wake up alarm that these problems were

not just local regional office concerns, but HCFA speaking from a national

perspective.”





                                            7

Second, contractors found it particularly beneficial to learn more about how others
dealt with similar problems. Several people we interviewed considered this to be the
strongest benefit of using the external teams.




  �    The use of external teams added an element of objectivity to the reviews.

In our interviews, contractors and HCFA staff identified three ways in which the use
of external teams added objectivity to the review process. First, all agreed that the
external teams placed some new demands on the contractors. One HCFA staff
member explained this as, “They didn’t know us and we didn’t know them. So they
had to show us something new, not the same old thing that they would dust off for the
regional office reviewers.” One aspect of this fresh look was that in most cases the
review teams went to the contractors with no advance contact with the local HCFA
regional office. Although this lack of contact may have meant that the team was not
fully informed on local issues, those we spoke with thought that this “lack of contact
didn’t really matter. If there was a problem we found it in our review, and didn’t need
someone to point it out ahead of time.”

Second, contractors felt the need to justify and explain their operations to the new
team--and to themselves--as part of this process. One contractor explained this as
follows: “If you deal with someone on a daily basis, they may have trouble coming in
and finding fault. If they don’t know us, they can be more objective, not as concerned
about our feelings or their future dealings with us.” Another contractor told us that
“The regional office is good, because you know them; but with an outside team, you
are more challenged to really walk them through your processes, to be sure you
explain them.”




                                            8

Finally, the use of teams themselves appears to have brought a sense of balance to the
review. One contractor characterized this as, “Each regional office has its strengths
and weaknesses; each team brings different perspective.” Another noted that, “YOU
can run into problems in the individual philosophies of different reviewers that may
disagree with us. Teams tend to overcome that perspective, because the group tends
to moderate the extremes.”

The potential exists that external reviewers might not be knowledgeable about unique
local situations affecting contractors. However, our intemiews with contractors
suggested that this was not the case. One contractor explained that “The team did not
have all of our history, but that wasn’t a problem. You’d probably have to walk the
local regional office team through the process also to bring them up to speed.”
Another told us, “We had an initial concern about the external teams. But they were
up to speed. This was clear once we found that they wanted to talk rather than just
lock themselves in a room with documents! They talked, listened, were very open. If
there was a question, we could explain it to them.”

OUR EARLY ASSESSMENT ALSO SUGGESTS THAT HCFA HAS NOT YET MADE FULL
USE OF THE INFORMATION GATHERED IN THESE REVIEWS TO FURTHER
CONTRACTORS’ ABILITY TO SAFEGUARD MEDICARE PAYMENTS.

HCFA regionalstaff are usingthe writtenreportsfrom thesereviewsin theirongoing
assessmentof contractorperfomumce. Howeveq reg”onalstaflmay not be takzkg@l
advantageof theserepr@ to providemore ejfectiveovernight of contractoractivitkx

After issuing its written report, the review team’s role in contractor monitoring ended.
When it had recommended a corrective action plan (CAP), review team members
received a copy of the contractor’s response. But approval of the CAP and oversight
of its implementation are the responsibility of the contractor’s local regional office. In
reviews in which the team did not impose a CAP, even if other weaknesses were
identified,   no specific action is required   of the regional   office.

The written reports contain a substantial amount of information that would be useful
to a regional office in its ongoing monitoring of contractor performance--whether or
not a formal corrective action plan was required. Our interviews with HCFA staff
indicated that the way in which the reports are actually used to monitor contractors is
up to the individual regional offices. The HCFA central office has apparently adopted
a hands-off approach. As individuals there told us, “We don’t know how the follow-up
worked. It’s up to the home region to do and we haven’t done any real follow-up with
them. Contractor evaluation is really their job.”




                                                  9

The contractors we interviewed shared different experiences with follow-up.




One apparent reason for this inconsistency is that the primary audience for these
reports is not clear. According to those we interviewed, at HCFA and the contractors,
the primary audience for the report was not the regional office. During the course of
our interviews, we asked individuals from the regional offices, central office, and
contractors who they thought was the focus of the written rep~rts. Four responded
that the primary audience was the HCFA central office, while nine said that the
audience was the contractor. None indicated that the primary audience was the
regional office. We recognize that this is not a statistically valid sample, but believe
that it does provide a strong indication that those involved did not really view these
reports as a way of enhancing contractor monitoring by the local regional office.

The writtenreportsvariedwiddj infour significant

  �    Cn”teriafor imposing corrective action plans

The criteria for imposing a formal corrective action plan were not clear. A review
team could require a CAP if it determined that the contractor did not comply with the
requirements of the Medicare manual. In some reports, the findings were tied directly
to individual sections of the manual; in other reports, the findings were more broadly
constructed, along with details about how the team thought the contractor should
come into compliance with the manual. At still other contractors, it was not even
clear from reading the report whether a formal CAP was required, or whether the


                                            10
team was merely identifying weaknesses and making recommendations      for
improvement.

It is also worth noting that the teams reviewing focused medical review at fiscal
intermediaries were much more likely to impose CAPS, doing so on at least 15 of the
20 intermediaries reviewed. In contrast, the review teams required a CAP for only 4
of 19 carriers in medical review, and 2 of 16 intermediaries and 1 of 18 carriers in
fraud and abuse.

  �   Differing interpretations of similar facts

We found instances in which differing interpretations were attached to similar
situations, impacting on recommendations, strengths and weaknesses. The following
boxes provide examples of two such apparent conflicts.




  �    No prioritization of recommendations

The reports did not indicate which recommendations offered to contractors were the
most important. The reports listed recommendations for improvement or corrective
actions in the sequence in which they had appeared in the written report. In fact, it
appears that some weaknesses are more consequential than others and probably
should be corrected first, whereas others appear to be less significant.

  �    Different levels of detail reported

The reports varied among teams in the detail that was provided. For example, when
describing a contractor’s data analysis capabilities, some reports described only the
software that the contractor used in a brief paragraph. Other teams provided


                                               11

extensive information on the type of hardware, software, reports issued, and how the
data were analyzed. We raise this as a concern because it reflects on the audience for
these reports. The contractor will already know this information; the level of detail
may be more than HCFA central office needs (unless some type of standardization is
being considered); and the regional office is likely to already be familiar with the
contractor.

In the come of the rm”ews,HCFA gatherednutionalreformationon #ective contractor
practices,as wellaspracticesto avoid Howeve~ the agencyhas not yet conveyedthk
                                                 overaUoperationof the Medicare
informationto contractor as a way of strengthening
program

Nine of the fifteen contractors we interviewed told us that they wanted information on
effective practices of other contractors that HCFA learned from the reviews. These
contractors told us this in unsolicited discussion, i.e., not in response to a particular
question we asked.

The interest in this information was particularly noticeable among the contractors we
interviewed that had not been reviewed under the new approach. All five of those we
spoke with requested this information. But four of the ten contractors that were
reviewed also wanted to receive such information.

Four of these contractors told us that they had received from HCFA a general listing
of strengths and weaknesses in fraud and abuse at a December 1994 meeting of
contractors. Even those contractors who did obtain that summary told us that they
wanted a more formalized analysis of what the 1994 reviews showed to be effective
practices and practices to avoid. They indicated that they would use the material to
examine ways of improving their own operations.




                                            12

                   RECOMMENDATIONS


We recognize    that this approach marked a new direction for HCFA. This new

approach clearly involved a learning curve--for the reviewers, for the contractors, and

for HCFA administrators.      We also recognize that the subjective nature of the reviews

leaves substantial discretion to the individual review teams. By its nature as an

evolving process, the HCFA staff learned lessons as they pursued the reviews,

including development     of additional questions to guide the review and their

subsequent reflection in the report.


The real measure of the success of this new approach will be determining whether
contractors in the years ahead are doing a better job of preventing inappropriate
payments under the Medicare program.

In order to build upon the process initiated in 1994, we believe that HCFA could
strengthen that process and its intended outcomes through the following steps:

THE HCFA CENTRAL OFFICE SHOULD BE SURE TO OBTAIN INFORMATION FROM
THE REGIONAL OFFICES X) SEE HOW THEY ARE MONITORING CONTRACTOR
IMPROVEMENT PLANS THAT AROSE FROM THESE REVIEWS OF FRAUD AND ABUSE
ACIWITEH AND MEDICAL REWEW.

We recognize that contractor evaluation and monitoring remain the primary purview
of the regional offices. At the same time, we believe that it behooves the agency to
continue to have central knowledge about contractors’ progress in implementing
corrective actions and recommendations made by the review teams. We believe that
obtaining this information is important for three reasons.

First, because this was a dramatically new approach to contractor evaluation, HCFA
needs to assess its impact over time. Because this evaluative approach was designed
to change contractor behavior and improve their performance, HCFA needs to know
how and to what extent the new approach has been successful in achieving these goals.

Second, the regional offices were not involved in reviewing contractors within their
own region. To the extent that the regional office staff may feel somewhat
disenfranchised or left out of these reviews, it is important that HCFA have some
mechanism to determine whether the regional offices have accepted the findings of the
reviews, particularly when the reviews were done by teams from outside of the region.

Third, as we note in our findings, there appear to be different ways of approaching
and using the reports among the regions. To be sure that the goals of this review are
realized, HCFA needs to have some central source for assessing the practical
usefulness of the reports.




                                            13

-   HCFA SHOULD PROVIDE GUIDANCE FOR REVIEW TEAMS REGARDING KEY
INFORMATION TO BE CONTAINED IN THE WRITTEN REPORIS.

In our findings, we note that there are discrepancies in the format and supporting data
contained in the written reports. At a minimum, we believe that this information
should include:

  �    the basis for imposing corrective     action plans;

  �    the supporting data needed to portray accurately the results of the reviews; and

  .    prioritization   of recommendations    for improvement.

We believe that HCFA should ensure that the reports contain this minimum
information for two important reasons.

First, having this information will let the agency compare and understand performance
from a broad national perspective. Even though HCFA is no longer ranking
contractors, the agency still needs to have information that lets it assess performance
across the different organizations with which it contracts.

Second, having a solid base of information would be particularly important in the
event that the agency must take adverse action against a contractor. The HCFA
needs to be sure that the evaluation of that contractor will stand up under scrutiny.

In developing a format for this information, we urge HCFA to be cautious not to lose
the vibrancy and creativity contained in the team reviews. The ability of the teams to
identi~ important issues at each contractor, and to examine different levels and depths
of information is one of the significant benefits of the new approach.

~    HCFA SHOULD TAKE IMMEDIATE STEPS TO PREPARE AN ANALYSIS OF
EFFECTIVE PRACIKES, AND PRACI’ICES TO AVOID, BASED ON FINDINGS FROM THE
1994 REVIEW PROCESS. ~   HCFA SHOULD SHARE THESE ANALYSES WITH ALL
FISCAL mrmRMEDrARIEs AND CARRIERS.

In the spirit of continuous quality improvement, HCFA could help all contractors meet
its expectations for performance in fraud and abuse and in medical review. We found
a strong demand for this type of information among contractors, to help strengthen
their practices and to help them avoid “reinventing the wheel.” By providing
information on practices that are successful in achieving these outcomes, HCFA would
benefit the contractors, while also helping to safeguard the Medicare trust funds.

To be effective and useful, this product must be more than just a listing of what
individual teams found on site. The analysis needs to be a short term, but thorough,
appraisal of what actions and approaches work, their potential to achieve program
goals, ways of measuring success, and other pertinent information. This review would



                                               14

result in HCFA’S constructive assessment of what contractors should be doing to
safeguard Medicare payments.

We urge that HCFA evaluate the success of this effort, perhaps through conducting
surveys to gain feedback from the contractors who receive this information. If the
approach is successful and meaningful for the contractors, we would urge HCFA to
continue to conduct and share similar analyses in the future.
                  AGENCY               COMMENTS


We sought comments on the draft report from HCFA and from the Assistant
Secretary for Planning and Evaluation (ASPE). The HCFA concurred with our
recommendations and summarized steps that the agency is taking to implement those
recommendations.    The ASPE also concurred with our recommendations, but offered
no additional comments. We include HCFA’S full comments as Appendix A.

In response to our first recommendation, HCFA indicates that regional offices are
submitting copies of Contractor Performance Improvement Plans to the central office.
Central office and the regions are working to develop a mechanism for continuous
monitoring of these Performance Improvement Plans.

In response to our second recommendation, HCFA notes that it is providing general
guidelines for review teams concerning key information to be communicated in written
reports. The actual report format will be determined by the review teams, as is
currently being done for the national review in the Medicare Secondary Payer area.

In response to our third recommendation, HCFA states that it already has
disseminated best practices to carriers and intermediaries.

We appreciate HCFA’s positive response. We would be pleased to work with the agency
in the jhture to evaluate the effectiveness of its actions in these areas.




                                          16

       APPENDIX    A

HCFA COMMENTS ON DRAFI’REPORT




             A-1
             *   $:AV’C’J
                      ,.,,
     *.,+’
 �

:’
.

                                DEPARTMENT OF HEALTH & HUMAN SERVICES                               Health Care Financing   Adminlstratlon

-=

 -0    #
   “+
    %%d,a
      >                                                                                             The Administrator
                                                                                                    Washington, D.C.    20201




                             DATE           JIJL 29   1995
                             FROM	        Bruce Vladeck..
                                          Administrator

                             SUBJECT	     office of Inspector General Draft Report “Monitoring Medicare
                                          Contractor Performance:    A New Approach,” (OEI-01-93-O0160)

                             TO	          June Gibbs Brown
                                          Inspector General


                             This draft report institutes a new approach for reviewing contractor performance      in two
                             areas of payment safeguards: medical review and fraud and abuse activities.

                             We concur with the report recommendations.    Our specific comments are attached.
                             Thank you for the opportunity to review and comment on this report.


                             Attachment




                                                                        A-2

             Health Care Financin~ Administration     (HCFA) Comments on
           Office of Inspector   General Draft Report: “Monitoring Medicare
                                  Contractor Performance:
                            A New Approach,” (OEI-01-93-00160)



Recommendation    1

HCFA Central Office (CO) should be sure to obtain information from the regional
offices (RO) to see how they are monitoring contractor improvement plans that arose
from these reviews of fraud and abuse activities and medical review.
                                       ,,
HCFA Res~onse

We concur. Currently, ROS are submitting copies of their Contractor Performance
Improvement Plans and CO will be working with the regions to develop a mechanism for
continuous monitoring of the Performance Improvement Plans.

OIG Recommendation      2

HCFA should provide guidance for review teams regarding key information       to be
contained in the written reports.

HCFA Response

We concur. HCFA wdl provide       general guidelines for review teams concerning key
information to be communicated     in written reports. However, the review teams will
determine their own formats for   the reports. This is currently being done for the
natiohal review of the Medicare   Secondary Payer area.

OIG Recommendation     3

HCFA should take immediate steps to prepare an analysis of effective practices and
practices to avoid based on findings from the 1994 review process. HCFA should share
these analyses with all fiscal intermediaries and carriers.

HCFA Response

We concur. HCFA has already disseminated “best practices” to all carriers and
intermediaries.  The fraud and abuse “best practices” were shared during the 1994
national meeting. In FebmaV 1995, the medical review “best practices” was distributed
to all Medicare contractors. We have not gathered information on practices to avoid.




                                           A-3

                              APPENDIX                  B




                                    ENDNOTES


1. Conference Report 103-73, to accompany H.R. 4606; Public Law 103-333.

2. The standards and criteria on which contractors are evaluated are published
annually in the Federal Re@ter.

3. U.S. General Accounting Office, Medicare: HCFA’s Contacting Authori~ for
Processing Medicare Claims, GAO/HEHS-94-171, 2 August, 1994, p. 7.

4. Letter to All Medicare    Contractors, from Carol J. Walton,   Director,   HCFA   Bureau
of Program   Operations,   May 20, 1994.

5. Of the 79 Medicare contractors, 52 were actually reviewed using the new approach.
These comprised 28 intermediaries and 24 carriers. Eight intermediaries and carriers
were units of single overall organization, eg, a Blue Cross-Blue Shield plan that held a
contract for both Parts A and B.

The HCFA teams conducted a total of 73 reviews. The teams reviewed 20
intermediaries in only 1 area, and 8 in both areas. The teams reviewed 11 carriers in
only 1 area, and 13 in both areas.




                                           B-1

